 DOE/IG-0569




                                  THE FEDERAL ENERGY
    EVALUATION                 REGULATORY COMMISSION'S
      REPORT                  UNCLASSIFIED CYBER SECURITY
                                     PROGRAM 2002




                                        SEPTEMBER 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
THE FEDERAL ENERGY REGULATORY COMMISSION'S CYBER
SECURITY PROGRAM 2002

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .......................................................... 1

               Conclusions and Observations.................................................. 1


               Cyber Security Program Weaknesses

               Details of Finding ........................................................................ 3

               Recommendations and Comments ............................................ 7


               Appendices

               1. Scope and Methodology ....................................................... 8

               2. Related Reports .................................................................... 9

               3. Management Comments ..................................................... 10
Overview

INTRODUCTION AND   The Department of Energy (Department) Organization Act established
OBJECTIVE          the Federal Energy Regulatory Commission (Commission) in 1977.
                   The Commission is an independent entity within the Department that
                   regulates the transmission and sale of electric power, natural gas, oil,
                   and hydroelectric power. The Commission's increasing reliance on
                   information technology systems is consistent with satisfying the
                   President's Management Agenda initiative of expanding electronic
                   government. Specifically, the Commission expects to invest
                   $23 million in information technology-related activities in
                   Fiscal Year 2002. This substantial investment supports the
                   development and maintenance of diverse information systems used to
                   meet day-to-day mission requirements such as financial management,
                   utility regulation, and licensing of hydroelectric projects.

                   Congress enacted the Government Information Security Reform Act
                   (GISRA) in October 2000 to codify existing policies and regulations
                   and reiterate security responsibilities outlined in the Computer Security
                   Act of 1987 and the Clinger-Cohen Act of 1996. GISRA focuses on
                   program management, implementation, and evaluation aspects of the
                   security of government information and requires agencies to conduct
                   annual program reviews and independent evaluations of computer
                   security programs.

                   As required by GISRA and Office of Management and Budget (OMB)
                   implementing guidance, the Office of Inspector General (OIG)
                   performed an evaluation to determine whether the Commission's cyber
                   security program protected data and information systems.


CONCLUSIONS AND    While the Commission had implemented a number of protective
OBSERVATIONS       measures, certain critical information systems remained at risk. Cyber
                   protection efforts suffered from program management, planning, and
                   execution weaknesses. Specifically, we noted that the Commission had
                   not:

                      •   developed system specific security plans;
                      •   assured continuity of operations through adequate contingency
                          and disaster recovery planning;
                      •   implemented a completely effective cyber security training
                          program; and
                      •   adequately addressed certain configuration management and
                          access control problems.



Page 1                                                       Introduction and Objective/
                                                          Conclusions and Observations
         These vulnerabilities existed because the Commission had not provided
         adequate management attention to implementing an effective cyber
         security program. These problems placed the Commission's systems at
         risk of unauthorized or malicious use and increased the potential for
         compromise of sensitive operational and personnel-related data.

         The Commission has taken several positive steps in an effort to
         strengthen its cyber security program. The Office of the Chief
         Information Officer (CIO) recently instituted procedures to review and
         strengthen network passwords. The CIO is also in the process of
         developing policies and procedures that should provide the framework
         for a more fully developed cyber security program. In addition, an
         Agency Plan of Action and Milestones database has been developed to
         track cyber security weaknesses and related corrective actions. The
         Commission is also working to develop and finalize an organization-
         wide Cyber Security Action Plan. While program improvements have
         occurred, additional work is necessary to ensure that critical
         information technology resources are adequately protected.

         Due to security considerations, information on specific vulnerabilities
         and systems has been omitted from this report. Management officials
         have been provided with detailed information regarding identified
         vulnerabilities, and in some instances, have initiated corrective actions.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.



                                        _______(Signed)________
                                        Office of Inspector General




Page 2                                          Conclusions and Observations
Cyber Security Program Weaknesses
Systems and Data    The Commission's cyber security program did not adequately protect
Remain at Risk      information systems resources and data. Specifically, security plans
                    had not always been prepared to mitigate risks or known vulnerabilities
                    for specific systems. In addition, continuity of operations plans had not
                    been developed and tested to permit quick recovery from a security-
                    related system failure. Furthermore, the Commission had not ensured
                    that staff and individuals with significant security responsibilities had
                    received adequate cyber security training. Configuration management
                    and access control weaknesses also increased the risk of malicious or
                    unauthorized access to networks and systems.

                                                System Security Planning

                    While the Commission contracted with an independent entity to
                    perform a vulnerability assessment on its information systems, we
                    found that a system specific security plan addressing operational risks
                    and remediation approaches had only been developed for one major
                    system. Plans remained incomplete despite the identification of this
                    issue during the Fiscal Year 2001 Financial Statement Audit. Although
                    the Commission had not completed such plans, it had taken the
                    incremental step of conducting an evaluation of its systems using the
                    National Institute of Standards and Technology Special Publication
                    800-26, Security Self-Assessment Guide for Information Technology
                    Systems. However, at the time of our review, the Commission had only
                    completed self-assessments on approximately 50 percent of its systems.

                    Even though action had been taken to improve cyber security planning,
                    additional steps are needed. Specifically, the Commission's Cyber
                    Security Action Plan remained in draft and did not include all of the
                    elements necessary for ensuring its effectiveness. For example, the
                    draft plan did not include milestone dates critical to securing the
                    information technology environment. In addition, a prioritized list of
                    systems the Commission could use to identify mission critical1 systems
                    had not been developed.

                                                   Continuity Planning

                    Continuity of operations plans to permit quick recovery from a security-
                    related system failure or disruption of critical services were not in
                    place. We noted that both organization-wide and systems specific


                    1
                     We considered a system to be mission critical if, in our opinion, it met the definition
                    found in Section 3532(b)(2)(C), GISRA, i.e., if it "processes any information, the
                    loss, misuse, disclosure, or unauthorized access to or modification of, would have a
                    debilitating impact on the mission of an agency."
Page 3                                                                               Details of Finding
         contingency plans had not been developed or had not been approved.
         While the Commission had taken action to mitigate the risk of system
         failure by creating and storing computer data backup tapes off-site, it
         had not tested the ability to restore such data at alternate processing
         sites. Failure to develop and test such plans exposes the Commission to
         the risk that it would be unable to restore critical networks and
         information systems or maintain continuity of operations in the event of
         a successful attack.

                                         Training

         The Commission's cyber security training program was also not
         completely effective. While the Commission was proactive in
         providing cyber security awareness training, it had not focused
         sufficient attention on those individuals with significant security
         responsibilities. Specifically, at the time of our evaluation, the
         Commission had not identified the universe of such employees or
         developed a core curriculum for them.

                    Configuration Management and Access Controls

         Configuration management weaknesses at the Commission presented
         opportunities for malicious access by both internal and external entities
         and increased the potential for unauthorized changes or damage to
         software and data. For example, outdated software with known
         vulnerabilities was observed on 11 servers. We also found improperly
         configured or unsecured remote access and file transfer services on
         numerous servers. Additionally, several system servers were
         configured in a manner that could permit unauthorized access for
         changing or obtaining information. The risk of malicious or
         unauthorized access was exacerbated by the fact that software tools
         installed on several systems did not permit auditing and monitoring of
         unusual or potentially harmful system activity.

         Weak access controls and poor password management also increased
         the risk of unauthorized access. For instance, the Commission did not
         always employ strong password controls to minimize the risks
         associated with exploits such as automated guessing or "cracking"
         programs. One system we evaluated did not require strong passwords
         that contained an alphanumeric combination. Account access was
         allowed without passwords for certain systems, including an
         administrator account that could be used to access multiple servers.



Page 4                                                         Details of Finding
                            Several other systems did not require that passwords be changed at
                            regular intervals. An important control designed to prevent "brute
                            force" access through password guessing -- account lockout after
                            numerous incorrect login attempts -- had not been activated on one
                            server.

Protection of Information   GISRA requires that each agency develop and implement an agency-
Resources                   wide cyber security program, consisting of policies, procedures, and
                            control techniques, sufficient to protect information systems supporting
                            agency operations and assets. GISRA focuses on program
                            management, implementation, and evaluation aspects of the security of
                            unclassified and national security information. It requires agencies to
                            adopt a risk-based, life cycle approach to improving computer security
                            and requires annual agency information security program reviews and
                            independent evaluations of both unclassified and classified computer
                            security programs. Specifically, GISRA requires:

                              •    Periodic risk assessments that consider internal and external
                                   threats to the integrity, confidentiality, and availability of
                                   systems and data;
                              •    Policies and procedures that are based on risk assessments that
                                   cost-effectively reduce information security risk to an
                                   acceptable level;
                              •    Adequate training of staff responsible for cyber security;
                              •    Cyber security awareness training for agency personnel;
                              •    Periodic management testing and evaluation of the effectiveness
                                   of the program;
                              •    A process for ensuring remedial action to address significant
                                   deficiencies; and,
                              •    Procedures for detecting, reporting, and responding to cyber
                                   security incidents.

Program Design and          Vulnerabilities existed because the Commission had not provided
Implementation              adequate management attention to implementing an effective cyber
                            security program. Specifically, organizational responsibilities had not
                            been stressed sufficiently and performance measures for cyber security
                            had not been developed.

                            We identified instances where Commission management was either
                            unaware of responsibilities, uncertain of their authorities, or had not
                            coordinated effectively to ensure that needed actions were taken. For
                            example,



Page 5                                                                            Details of Finding
              •   Although the Commission's interim directive for information
                  technology security specifically assigned responsibility for
                  developing and implementing system security plans to office
                  directors, only one office had prepared such a plan. In
                  addition, the one plan that had been prepared was not
                  approved because the head of the office was not aware that it
                  was his responsibility to approve it.

              •   During the period under evaluation, officials from the Office
                  of the CIO indicated that they lacked the authority for
                  monitoring or administering security for all of the
                  Commission's financial systems. For example, they noted that
                  they had no authority to conduct testing or review security
                  practices and were not aware of financial information system
                  security weaknesses disclosed by our Fiscal Year 2001
                  Financial Statement Audit until several months after they were
                  reported.

              •   In another instance, we observed that senior management
                  officials did not agree on the identification of mission critical
                  systems and commensurate protective measures. As a result,
                  at the time of our review, the Commission had not identified
                  which systems were critical to continuing operations of the
                  agency.

              •   Budgets for cyber security related activities were either not
                  prepared or lacked sufficient specificity to determine whether
                  they addressed individual system lifecycle security costs.

         The Commission also had not developed and implemented cyber
         security related performance goals as required by the Government
         Performance and Results Act of 1993 (GPRA). The Commission
         acknowledged the lack of such measures in its 2001 GISRA submission
         to the OMB but has yet to develop a method for tracking progress in
         this important area. For instance, specific measures and a metric
         system capable of measuring progress in areas, such as agency-wide
         security planning, including security training, and a certification and
         accreditation process, had not been implemented. While the
         Commission was tracking performance measurement weaknesses in its
         Plan of Action and Milestones database, corrective actions related to the
         development of such measures were not ranked as a high priority and
         had not been completed.



Page 6                                                          Details of Finding
Risk of Compromise    The threat of compromise of critical information resources continues to
                      grow as the Commission moves closer to a paperless environment. A
                      lack of attention to implementing an effective cyber security program
                      and not promptly correcting weaknesses identified during the FY 2001
                      GISRA process increased the risk of compromise or malicious damage
                      of the Commission's critical systems, some of which enable delivery of
                      essential services to industry, members of the public, and other Federal
                      agencies. In addition, a lack of cyber security training increases the risk
                      that adequate measures will not be taken to protect the information
                      included in the agency's systems.


RECOMMENDATIONS       To improve cyber security within the Commission, we recommend that
                      the Chairman:


                         1. Clarify roles and authorities for the CIO related to the
                            development and implementation of a Commission-wide cyber
                            security protection program;

                         2. Ensure that system security plans are approved, mission critical
                            systems are identified, and that continuity of operations for the
                            systems is assured through adequate contingency and disaster
                            recovery planning;

                         3. Ensure that cyber security objectives are given appropriate
                            priority within the agency and cyber security costs are included
                            in the system development life cycle; and

                         4. Direct the establishment of performance goals, and an
                            associated metrics system, for measuring progress in improving
                            cyber security and correcting known weaknesses.


MANAGEMENT REACTION   Management concurred with our recommendations and stated that it
                      had addressed many observations identified in the report by enhancing
                      certain elements of the cyber security program. Management also
                      stated that it planned to work over the course of the next year to close
                      evaluation findings through corrective action plans. The Commission's
                      verbatim comments can be found in Appendix 3.


AUDITOR COMMENTS      Management's comments were responsive to our recommendations.


Page 7                                                   Recommendations and Comments
Appendix 1

SCOPE         Between June and August 2002 we performed a vulnerability
              assessment of the Commission's cyber security program. Specifically,
              we assessed controls over network operations to determine the
              effectiveness of access controls related to safeguarding information
              resources from unauthorized internal and external sources. The
              evaluation included a limited review of general and application
              controls in areas such as entity-wide security planning and
              management, access controls, application software development and
              change controls, and service continuity. Our work did not include a
              determination of whether vulnerabilities found were actually exploited
              and used to circumvent existing controls.


METHODOLOGY   We satisfied our evaluation objective by reviewing applicable laws and
              regulations pertaining to cyber security and information technology
              resources, such as GISRA, OMB Circular A-130 (Appendix III), and
              the Clinger-Cohen Act, and reviewing the Commission's overall cyber
              security program management, policies, procedures, and practices.
              The Commission's headquarters was evaluated in conjunction with the
              annual audit of the Department's Consolidated Financial Statements,
              utilizing work performed by KPMG LLP, the OIG contract auditor.
              The evaluation included analysis and testing of general and application
              controls for systems as well as vulnerability and penetration testing of
              networks.

              We evaluated the Commission's implementation of GPRA related to
              the establishment of performance measures for cyber security. We did
              not rely solely on computer-processed data to satisfy our objectives.
              However, computer-assisted audit tools were used to perform probes
              of various networks and devices. We validated the results of the scans
              by confirming the weaknesses disclosed with responsible on-site
              personnel and performed other procedures to satisfy ourselves as to the
              reliability and competence of the data produced by the tests. Because
              our evaluation was limited, it would not have necessarily disclosed all
              internal control deficiencies that may have existed at the time of our
              evaluation.

              The evaluation was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objectives. We held an exit
              conference with management on September 10, 2002.



Page 8                                                    Scope and Methodology
Appendix 2

                    RELATED OFFICE OF INSPECTOR GENERAL AND
                      GENERAL ACCOUNTING OFFICE REPORTS


    •    The Department's Unclassified Cyber Security Program, (DOE/IG-0519, August 2001).
         While the Department has initiated certain actions designed to enhance cyber security, it has
         not made sufficient progress in identifying and developing protective measures for critical
         infrastructures or assets. For example, our audit disclosed that: 1) the identification of national
         priority assets had not been finalized and the specific identification of critical cyber-related
         assets had not begun; 2) corrective actions to address issues disclosed by our previous audit of
         the Department's infrastructure protection program were progressing slowly and remained
         incomplete; 3) specific, quantifiable infrastructure protection-related performance measures
         had not been developed; and 4) the Department's critical infrastructure protection plan had not
         been updated.

    •    The Department of Energy's Implementation of the Clinger-Cohen Act of 1996, (DOE/IG-
         0507, June 2001). While the Department has taken action to address certain information
         technology related management problems, it has not been completely successful in
         implementing the requirements of the Clinger-Cohen Act of 1996. We attributed the problems
         identified, in part, to the Department's decentralized approach to information technology
         management and the organizational placement of the CIO.

    •    Fiscal Year 2000 Consolidated Financial Statements, (DOE/IG-FS-01-01, February 2001).
         The report identified three reportable weaknesses in the Department's system of internal
         controls pertaining to performance measures, financial management, and unclassified
         information system security. Specifically, performance goals, in many cases, were not output
         or outcome oriented and/or were not meaningful, relevant, or stated in objective or quantifiable
         terms. The Department also had certain network vulnerabilities and general access control
         weaknesses.

    •    Executive Guide: Maximizing the Success of Chief Information Officers: Learning From
         Leading Organizations, (GAO-01-376G, February 2001). The General Accounting Office
         (GAO) issued this executive guide to provide pragmatic guidance that federal agencies can
         consider in determining how best to integrate CIO functions into their respective organizations.
         The guide provided critical success factors that, if implemented, will be useful towards
         achieving a successful information technology environment.

    •    Information Security: Serious and Widespread Weaknesses Persist at Federal Agencies,
         (GAO/AIMD-00-295, September 2000). GAO noted that a major contributing factor to the
         existence of security vulnerabilities was ineffective and inconsistent information technology
         security management throughout the Department. GAO found that, among other things, the
         Department had not prepared federally required security plans, effectively identified and
         assessed information security risks, or fully and consistently reported security incidents.

Page 9                                                                                      Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 10                            Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
                                                                              IG Report No.: DOE/IG-0569

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
